-J



1~1
                                       OFFICE OF INSPECTOR GENERAL
                                     EXPORT-IMPORT BAJ'IK oftbe UNITED STATES




      Apri l 22, 2014



      A. Roy Lavik
      Inspector Genera l
      U.S. Commodity Futures Trading Commission
      Three Lafayette Centre
      1155 21st Street, NW
      Washington, DC 20581

      Dear Mr. Lavik:

      We have reviewed the system of quality control for the audit organization of
      Commodity Futures Trading Commission Office of the Inspector General (CFTC OIG) in
      effect for the period Aprill, 2010, through March 31, 2013, and have issued our report
      thereon dated April 22, 2014, in which CFTC OIG received a rating of pass with
      deficiencies. That report should be read in conjunction with the comments in this letter,
      which were considered in determining our opinion. The findings below were not
      considered to be of sufficient significance to affect the opinion expressed in that report.

      Finding 1 - Policies and Procedures

      GAS 3.92 states "When performing GAGAS audits, audit organizations should have
      policies and procedures for the safe custody and retention of audit documentation for a
      time sufficient to satisfy legal, regulatory, and administrative requirements for records
      retention. Whether audit documentation is in paper, electronic, or other media, the
      integrity, accessibility, and retrievability of the underlying information could be
      compromised if the documentation is altered, added to, or deleted without the
      auditors' knowledge, or if the documentation is lost or damaged. For audit
      documentation that is retained electronically, the audit organization should establish
      effective information systems controls concerning accessing and updating the audit
      documentation." We found that CFTC's policies do not address electronic media.
      Majority of workpapers were electronic and they are working on transitioning to
      TeamMate for workpaper storage. Their policies and procedures should reflect their
      current practices.

      GAS 3.95 states "The audit organization should analyze and summarize the results of its
      monitoring process at least annually, with identification of any system ic or repetitive
      issues needing improvement, along with recommendations for corrective action. The
      audit organization should communicate to appropriate personnel any deficiencies noted
                                                                                          2


during the monitoring process and make recommendations for appropriate remedial
action ." We found that CFTC's policies and procedures do not address annual
summaries of the results of its monitoring process.

GAS 3.105 "An external audit organization should make its most recent peer review
report publicly available. For example, an audit organization may satisfy this
requirement by posting the peer review report on a publicly available web site or to a
publicly available file designed for public transparency of peer review results." We
found that CFTC GIG's policy does not address the posting of the peer review report for
the public.

In addition, CFTC GIG's policy does no reference GAS 6.23 through 6.27 to ensure
auditors obtain an understanding of information systems controls when information
systems are used extensively throughout the program under audit and the fundamental
business processes related to the audit objectives rely on information systems.

GAS 6.50 states; "If an audit is terminated before it is completed and an audit report is
not issued, auditors should document the results of the work to the date of termination
and why the audit was terminated. Determining whether and how to communicate the
reason for terminating the audit to those charged with governance, appropriate officials
of the audited entity, the entity contracting for or requesting the audit, and other
appropriate officials will depend on the facts and circumstances." We found that there
is no terminology in CFTC GIG's policies and procedures regarding the preparation of
appropriate documentation for engagements terminated prior to completion.

We also found that CFTC GIG's policy does not address if and how attestation
engagements or non-audit services would be performed. In addition, the overall policy
is not up to date with Government Auditing Standards 2011 revision.

Recommendation

1. CFTC GIG should update their policy and procedures to addresses the findings
identified and ensure compliance with GAS 2011 revision.

   CFTC OIG Response. The six comments provided by Ex-lm GIG, all address CFTC-GIG
   audit policies and procedures manual. Four of the issues raised were not presented
   to us before issuance of the draft peer review report. We agree with one of the four
   issues along with the two other issues raised. Changes have been made to our
   policies and procedures manual to address these three issues.

   Three of the comments in the letter incorrectly state that the policies and
   procedures manual we provided was missing certain guidance. During the exit
   conference Ex-1m GIG staff was advised where the guidance was located in the
   policies and procedures manual we had provided them. However the letter was not
                                                                                             3
-1
~


        corrected. Specifically: 1) guidance on summarizing CFTC-OIG monitoring process is
        located at sections 402.00 and 900.06; 2) guidance on auditors' reliance on
        electronic information systems is located at section 400.06; and 3) guidance on
        documenting the termination of a GAGAS audit is located at 400.07.

        Evaluation of CFTC OIG's Response. A draft report and the comment letter were
        provided on two separate occasions. The first preliminary copy was provided to
        CFTC OIG on February 6, 2014 and on March 5, 2014, the official draft was issued to
        CFTc-OIG for comments. The commenrlefter aldnorchange in either velsion
        provided. In addition, we concur that their policy sections 402.00 and 900.06
        mentions CFTC's OIG monitoring process but Government Auditing Standards also
        requires an annual analysis and summary of those results. The annual analysis and
        summary should be included. We also concur that Section 400.06 provides guidance
        on auditor's reliance on electronic information systems; however, we suggest that
        CFTC OIG's policy reference GAS 6.23 through 6.27. Finally, the original reference
        that CFTC provided Ex-lm OIG to their policy did not reference termination of GAGAS
        audits. During our review we identified this issue to CFTC OIG to include providing a
        copy of the comment letter on two separate occasions. The reference to 400.07
        does mention termination and we consider this issue resolved.

        If CFTC OIG takes steps to update their policy and addresses the findings it will
        resolve this recommendation.




      ~~
     Osvald~~---­
     Inspector General
